CERTIFICATE OF WORD COUNT
No.TBD
Charles Simon,
Petitioner(s),
v.
United States Department of Justice, et al.,
Respondent(s).
STATE OF MASSACHUSETTS)
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the Charles Simon Petition
Writ of Certiorari contains 3315 words, including the parts of the brief that are required or
exempted by Supreme Court Rule 33.1(d).

for

I declare under penalty of perjury that the foregoing is true and correct.

Lucas'DeDeus
September 20, 2019

SCP Tracking: Simon-3410 Dereimer Avenue-Cover White

